November 23, 2010

THOMAS G. DAY
VICE PRESIDENT, INTELLIGENT MAIL AND ADDRESS QUALITY

PRITHA MEHRA
VICE PRESIDENT, BUSINESS MAIL ENTRY AND PAYMENT TECHNOLOGIES

SUBJECT: Management Advisory – Full Service Intelligent Mail Program Customer
         Satisfaction (Report Number DA-MA-11-001(R))

This management advisory presents the results of our review of the U.S. Postal
Service’s Full Service Intelligent Mail (IM) Program (Project Number 10YG019DA000).
Our objective was to determine customer satisfaction with the Full Service IM Program
and identify barriers to mailer participation. We conducted this self-initiated review
based on performance risks associated with the Full Service IM Program. See Appendix
A for additional information about this review.

The Postal Service relies heavily on information technology to support its mission of
providing prompt, reliable, and efficient mail. IM barcodes for mailpieces have been
implemented and the enabling technology has been deployed to support mail visibility in
the Postal Service network. The Postal Service offers two different IM service options:
Basic and Full Service. Choosing the Basic option will ensure compliance with the
retirement of the long-standing barcode in May 2011. A major initiative of the IM
Program launched in May 2009 is the Full Service IM Program. Full Service IM systems
improve insight into how well mail can be sorted by equipment while providing
customers mailing information. Given the current financial condition of the Postal
Service, it is imperative for management to maximize participation in the Full Service IM
Program to enhance customer service and achieve benefits such as cost control and
revenue assurance. In fiscal year (FY) 2010, about 30 percent of 214 billion business
mailpieces contained the IM barcodes. During the same period, Full Service program
mailpieces grew at an average weekly rate of about 9 percent totaling 5.3 billion pieces
at year end or 2.5 percent of business mailpieces.

Conclusion

Surveys of Full Service IM participants disclosed mixed results for program usefulness.
For five of the six program benefit categories, one-third of the respondents described
the program features as very useful and the majority considered them at least useful.
However in three of the six benefit categories, one-third of the respondents described
Full Service Intelligent Mail                                               DA-MA-11-001(R)
 Program Customer Satisfaction


the program features as not useful at all. In addition, non-participants expressed several
concerns with the Full Service Program. The primary reasons mail owners did not
participate in the Full Service Program were high start-up costs and limited program
benefits. This indicates that the Postal Service needs to re-emphasize program benefits
and offer incentives to increase business mailer participation. In addition to start-up
costs and program features, mail service providers expressed concerns with assistance
at the business mail entry units (BMEU) and PostalOne! Help Desk. Not addressing
these concerns could limit program participation and customer satisfaction. See
Appendix B for our detailed analysis of this topic.

We recommend the senior vice president, Intelligent Mail and Address Quality, in
coordination with the vice president, Sales:

1.   Re-emphasize Full Service Intelligent Mail Program benefits to Postal Service
     business mailers.

2.   Consider offering program incentives to business mailers to offset program start-up
     costs.

3.   Provide continuing training to Business Mail Entry clerks and PostalOne! Help Desk
     employees on important Intelligent Mail issues.

Management’s Comments

Management generally agreed with the findings and recommendations and stated that
they have effective and ongoing efforts in place to address the issues raised in the
report. Management further stated that they have conveyed — and continue to convey
— the benefits of the Full Service Program in both generic and trade press coverage.
The Postal Service also indicated they have made an effort to bring more mailers into
the Full Service Program before this audit was conceived and want recognition for those
efforts. In addition, management said they will employ tools for small business mailers
to make it easier for them to migrate to full service. Beyond direct discounts for
participation in Full Service IM, the Postal Service views the requirement to use the
program for other incentive options as the better alternative to incent adoption. Lastly,
the Postal Service disagreed to an extent with our finding relating to customer
assistance that seems to emphasize the negative. The Postal Service provided some
mailer excerpts that evidenced praise for the PostalOne! Help Desk. These excerpts
primarily emphasized personal attention and diligence provided by Help Desk
personnel. The Postal Service also scheduled a detailed training and certification
program to help mailers address issues arising from Full Service mail preparation. See
Appendix C for management’s comments in their entirety.




                                            2
Full Service Intelligent Mail                                               DA-MA-11-001(R)
 Program Customer Satisfaction


Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report. We recognize that
corporate efforts were already underway to emphasize program benefits before the
inception of our audit and that the mailer participation results are mixed thus far. While
we also recognize the personal attention and diligence provided to customers by some
help desk personnel, the survey results and the comments submitted highlight the need
for additional training. Therefore, we agree enhancing employee training on IM issues
are warranted as customer complaints centered on employee knowledge and
availability.

The OIG considers recommendation 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-2100.




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Susan M. LaChance
    Corporate Audit and Response Management




                                            3
Full Service Intelligent Mail                                                                      DA-MA-11-001(R)
 Program Customer Satisfaction


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service relies heavily on information technology to support its mission
of providing prompt, reliable, and efficient mail. Management has implemented IM
barcodes for mailpieces and deployed the enabling technology to support mail visibility
into the Postal Service network. In FY 2010, about 30 percent of 214 billion business
mailpieces contained the IM barcodes. During the same period, Full Service program
mailpieces grew at an average weekly rate of about 9 percent totaling 5.3 billion pieces
at year end or 2.5 percent of business mailpieces. Beginning in May 2011, to be eligible
for automation discounts mailers need to use IM barcodes.

The Postal Service offers two different IM service options: Basic and Full Service.
Choosing the Basic option will ensure compliance with the retirement of the POSTNET
barcode in May 2011. A major initiative of the IM program launched in May 2009 is the
Full Service Program. Full Service systems improve insight into mail quality information
while providing customers mailing information. As part of the Full Service program,
customers submit electronic documentation that provides details about the mailpieces,
including the unique IM barcodes applied. Customers then receive Address Correction
Service data as well as scans of IM container barcodes captured at induction.

The Full Service option also proposes to obtain scan data from mail processing
equipment and compare it to mailing data received electronically to verify that the mail is
prepared according to the prices claimed by the mailer. The Postal Service plans to
implement this feature in the summer of 2011. In addition to providing improved
accuracy through census verification (current mail verification is performed by manual
selection of a sample), electronic verification reduces business mail acceptance labor
costs by eliminating postage statement data entry time and eliminates data entry errors.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this self-initiated review was to determine customer satisfaction with the
Full Service Program and identify barriers to mailer participation. Our review covered
the period of May 1, 2009, to April 30, 2010. To accomplish our objective we conducted
electronic surveys of Full Service and non-Full Service business mail owners1 and mail
service providers2. We obtained 3,9333 business mail owner email addresses from the
PostalOne! eDocs system and sent electronic surveys to all business mailers. We
categorized responses by service (Full Service and non-Full Service) and size (large,
medium, and small for business mail owners). We also obtained 418 mail service


1
  A business mail owner is any Postal Service business customer who produces and owns the content/message in
the envelope. Non-Full Service owners may be non-participating or using basic services.
2
  A mail service provider is a company or entity that creates prepares, processes, and presents or inducts mail for
business mail owners or other companies in the U.S. Postal Service network.
3
  We sent out a total of 4,351 surveys to mail owners and mail service providers. We received 362 responses or 8
percent. See Appendix A for details.


                                                          4
Full Service Intelligent Mail                                                                    DA-MA-11-001(R)
 Program Customer Satisfaction


provider email addresses from the mail.dat system and sent electronic surveys to all of
the business mail service providers.

To assess satisfaction with Full Service Program benefits, we collected results from 67
current Full Service customers. To identify barriers to Full Service mailer participation,
we surveyed business mailers who do not subscribe to the Full Service IM Program. We
collected data from 290 business mail owners and 75 business mail service providers
and categorized responses from mail owners based on mail volume. See Chart 1 for the
profile of mail owner respondents.

                        Chart 1. Mail Owner Survey Respondent Profile

                              Large                      Medium                        Small
                           (FY 09 mail         (FY 09 mail volume between           (FY 09 mail
    IM Status          volume > 1 million)         1 million and 500k)            volume < 500k)          Total
Full Service                    33                           17                         17                 67
Non-Full Service                80                           44                          99                223
Total                          113                           61                         116                290

We conducted this review from April to November 2010 in accordance with the Quality
Standards for Inspections4. We discussed our observations and conclusions with
management officials on September 9, 2010, and included their comments where
appropriate. We did not use computer-generated data for our analysis and therefore did
not assess the reliability of the data.




4
  These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978,
as amended by the IG Reform Act of 2008, created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.


                                                         5
 Full Service Intelligent Mail                                               DA-MA-11-001(R)
  Program Customer Satisfaction


 PRIOR AUDIT COVERAGE

                           Report       Final Report
   Report Title            Number           Date Report                  Results
Intelligent Mail         IS-AR-09-006    3/31/2009    The Postal Service was not aware of
Barcode Project                                       the significant complexities and
Planning and                                          extensive requirements needed for
Application                                           the Full Service Seamless
Development Life                                      Acceptance Service Performance. As
Cycle                                                 a result, delays occurred in the
                                                      design, build, and test schedules.
Intelligent             MS-AR-09-006     3/31/2009    Overall, controls were not adequate to
Mail/Seamless                                         ensure the Postal Service managed
Acceptance Project                                    the program effectively. As a result,
Management                                            the Postal Service is at risk of project
                                                      delays and cost overruns.




                                             6
Full Service Intelligent Mail                                                             DA-MA-11-001(R)
 Program Customer Satisfaction


                              APPENDIX B: DETAILED ANALYSIS

Benefits Realized by Full Service IM Program Participants

We surveyed IM Full Service business mailers on system usefulness and benefits as
they are the base customers to service providers and the Postal Service. As shown in
Chart 2 below, survey responses were mixed. In five of the six categories, one-third of
the respondents described the program features as very useful and the majority
considered them at least useful. Efficiency, accountability, and predictability features
were viewed more positively. However, in three of the six categories, one-third of the
respondents described the program features as not useful at all. As such, management
has the opportunity to re-emphasize traceability, quality, and responsiveness features to
participating full service business mailers.

                        Chart 2. Full-Service Business Mailer Responses

 Traceable - Each mailpiece can be tracked from origin to destination, as
 the pieces travel in containers and as they are released for processing.         Count     Percentage
 Very useful                                                                       22          35%
 Somewhat useful                                                                   18          29%
 Not useful at all                                                                 22          35%
 Efficient - Reduces reliance on paper and increases the reliance on
 computers and automated processes.
 Very useful                                                                       27          44%
 Somewhat useful                                                                   22          35%
 Not useful at all                                                                 13          21%
 Quality - Feedback about mail quality presented in a consolidated
 electronic format.
 Very useful                                                                       20          32%
 Somewhat useful                                                                   20          32%
 Not useful at all                                                                 22          35%
 Responsive - Increases the ability to update and maintain high quality
 address lists.
 Very useful                                                                       21          34%
 Somewhat useful                                                                   20          32%
 Not useful at all                                                                 21          34%
 Accountable Mail - Allows the mailer to measure service performance of
 the Postal Service and mail service providers.
 Very useful                                                                       23          38%
 Somewhat useful                                                                   19          31%
 Not useful at all                                                                 19          31%
 Predictable Mail - Indicates time dropped off at the Postal facility, where it
 is in the processing stream and when delivery is expected.
 Very useful                                                                       27          44%
 Somewhat useful                                                                   16          26%
 Not useful at all                                                                 18          30%




                                                      7
Full Service Intelligent Mail                                                                  DA-MA-11-001(R)
 Program Customer Satisfaction


Barriers to More Participation in the Full Service IM Program

We also surveyed business mail owners and mail service providers to identify reasons
for not participating in the Full Service IM program. The primary reasons business mail
owners do not subscribe to the Full Service IM program are because program start-up
costs are too high and program features are not useful (see chart 3). According to the
business mail owners, the cost of producing Full Service mailings often outweighs the
discounts. Also, some mailers have no need for the Full Service or for tracking their
mail. They just want the mail delivered timely.

    Chart 3. Summary of Non-Full Service Business Mail Owners Survey Responses

       Summary of Non-Full Service
           Mail Owner Responses                Large Medium             Small     Totals     Percentage
      Start-up costs too high/software          69 31                    68        168         48.7%
      requirements
      Program features not useful                26 12                    27         65          18.8%
      Unfamiliar with program                     55                      19         29          8.4%
      Other5                                     33 13                    37         83          24.1%
      Total Responses                            133          61         151        345          100%
      Note: Survey respondents were allowed to select more than one of the above reasons.

Comments from large mail owners include:

         “We signed up over a year ago, but after running print test found that our current print
          head could not print out the entire IMB. The new wider print head and upgrade software
          that we will have to purchase is going to cost us (if my memory is right) somewhere
          close to $100,000 to $125,000. So we are trying to put off spending that kind of money
          right now.”

         “The IMB is great except for the discount for Full Service. The man hours that go into
          making a mailing Full Service compatible are not worth the postage discount.”

         “We haven't actually used our Full Service abilities yet. My company does not think the
          extra work needed to use it is worth the minor savings we would receive. We do use
          CONFIRM6 with our basic IMB and that is sufficient to show our customers where their
          mail is.”

         “Information provided for quality does not actually tell the mailer anything useful. Reports
          are not helpful at this time due to the generic and difficulty to understand.”




5
  Most common concerns expressed under “Other” were Postal One! needs to be more user friendly, Mail.dat testing
criteria needs to be simplified, and issues with Postal Service help.
6
  CONFIRM is a mail tracking system intended to improve customer satisfaction. CONFIRM stands for Computerized
Online Notification For Inbound Reply Mail.


                                                       8
Full Service Intelligent Mail                                                            DA-MA-11-001(R)
 Program Customer Satisfaction


Comments from medium-sized mail owners include:

          “More postal savings in order to recoup start up time & expense.”

          “I would like the whole process of producing Full Service Intelligent Mail to be more cost
           effective.”

          “In this down economy I am not looking forward to having to upgrade equipment. Also,
           we would have to relearn a different part of our mailing software. All with no benefits to
           us. I am totally against the IMB. Its implementation should be put off until the economy
           returns to some normalcy.”

          “It is just too complicated and costly to upgrade from Basic to Full Service IMB.”

          “I believe that the intelligent bar code is the way to go. This may not be the best time to
           implement the change. The mail volume is so low that I am having a hard time getting
           the software company and the equipment to communicate. After two years of talking to
           the software company they just told me that I will need 2 different types of software for
           the 2 machines I have. Talk about confusing and frustrating. No wonder I don't see the
           IB used more!!!! Hopefully by the end of this year if I don't close the business I will be up
           and running”.

          “I’m eager to get going on Full Service Intelligent Mail. We use IMB and we try to do
           everything to be on cutting edge. However I am disappointed with my login experiences
           on the gateway and the patchwork with a poor implementation of FAST7. Sorry for the
           honest criticism. If I can't do it then tons of others won't even try.”

Comments made by small mail owners included:

          “Too expensive to use for the small mailer to provide tracking.”

          “The only thing that is saleable is the fact that the mail can be tracked.”

          “Need a better discount to reflect our costs.”

          ”For the small mailers as we are the costs and benefits are out of line in today’s
           economic environment. The regulations and hurdles are costing our institution an
           additional $18,000 annually due to the meter decertification regulations and our
           requirements to upgrade to ink jet imprinting. Now we will have to increase our costs
           again in order to be compliant to these new regulations.”




7
    Facility Access and Shipment Tracking.


                                                     9
Full Service Intelligent Mail                                                                  DA-MA-11-001(R)
 Program Customer Satisfaction


Business mail service providers also conveyed similar concerns regarding program high
start-up costs and limited perceived value as reasons for not subscribing to the Full
Service program. However, they also raised concerns with Postal Service assistance at
the BMEUs and the PostalOne! call center (see Chart 4).

        Chart 4. Summary of Business Mail Service Provider Survey Responses

             Mail Service Provider Responses                           Count    Percentage
             Postal Service BMEU/Call Center help                        23 29%
             inadequate
             Start-up costs too high                                       22 28%

             Program features not useful                                   20 26%

             Unfamiliar with the program                                    7 9%

             Other8                                                         6 8%
             Total                                                         78           100%
           Note: Survey respondents were allowed to select more than one of the above reasons.

Comments relating to customer service assistance included BMEU staff not adequately
trained on both basic and technical issues dealing with the IM Program. Business mail
service providers also expressed frustration with getting answers to basic questions
from their local facility and the PostalOne! Help Desk. Excerpts of business mailer
comments detailing issues with Postal Service assistance include:

        “To make matters worse, even the USPS personnel (in Memphis) are confused as I've
         had to correct and educate them.”

        “Postal employee training at the local level. Very difficult to implement when local
         assistance in unavailable.”

        “Provide better BMEU training during initial mailings so the clerks and their managers
         know & understand the process (better than I do - I shouldn't be teaching them).”

        “Make all help resources available from one place so that I don't keep getting redirected
         to other areas”.

        “The PostalOne! help desk most of the time does not have a clue they don’t respond to
         e-mails all the time and the wait time on the phone is too long.”

        “Clear information on what is needed should be available at a single postal source on
         line. Before we signed up to have help with our scenarios, it was taking forever to know
         what to do and get it approved. With their help, we were able to get all our scenarios
         approved, at which point Memphis told us we were ready for parallel testing and that
         someone would contact us. No one did. When we followed up, we were told that it was
         the local post office that would coordinate the testing. We contacted them, and they

8
  Most common concerns expressed under “Other” were issues dealing with additional Full Service requirements and
the amount of time for some mailings to post on the PostalOne! dashboard.


                                                       10
Full Service Intelligent Mail                                                                      DA-MA-11-001(R)
 Program Customer Satisfaction


         claimed to know nothing about it and kept referring us back to Memphis. Finally they
         wrote and said parallel testing was not necessary, but that we could submit on line
         PostalOne! statements and send them paper statements on a mailing as well. Sounded
         like parallel testing to me. They offered us no assistance or advice, let alone
         encouragement - even though all the promotional material claims that this is important to
         the post office.”

        “Also more input from the PostalOne! customer service and the trials of getting started
         with the Full or Basic IMB would have made our transition a lot easier if we didn’t have to
         pry the needed information from the postal person assigned to us. We wouldn’t receive
         calls back on questions for days and sometimes weeks. It was a very frustrating three
         months, yes three months.”

        “The USPS needs to train their employee on this process. USPS employees know little
         or nothing about this service and this is frustrating mailers with the IMB Full Service.”

        “Local USPS employees need training on the program so they are able to assist mailers.
         Every question always leads to "contact the Business Customer Gateway9". This can be
         very difficult as they seem to be overwhelmed with questions and most customers are
         used to getting very good service from their local postal employees. That is no longer the
         case.”

        “Train USPS employees so we don't have so many different answers.”

        “The training of your employees, the software and website, as well as the PostalOne!
         customer service/ticket help desk are severely lacking. The IMB conversion has been a
         nightmare for our mail house as well as many other in the area.”

        “The Postal One help desk does not address issues to correct error messages during
         the testing process.”

        “My contact at the Business Mail Entry Unit told me that my new IMB barcodes didn't
         pass Merlin10, but didn't offer any help.”




9
  The Business Customer Gateway is designed for business mailers. The Business Customer Gateway provides
access to services supported by multiple Postal Service systems. The intent of the Gateway is to provide a unified
landing point to provide customer ease of use
10
   Mailing Evaluation, Readability Lookup INstrument (MERLIN) is an automated system designed for use by
acceptance units to accept and verify discounted mailings.


                                                         11
Full Service Intelligent Mail                              DA-MA-11-001(R)
 Program Customer Satisfaction


                       APPENDIX C: MANAGEMENT’S COMMENTS




                                      12
Full Service Intelligent Mail         DA-MA-11-001(R)
 Program Customer Satisfaction




                                 13
Full Service Intelligent Mail         DA-MA-11-001(R)
 Program Customer Satisfaction




                                 14
Full Service Intelligent Mail         DA-MA-11-001(R)
 Program Customer Satisfaction




                                 15
Full Service Intelligent Mail         DA-MA-11-001(R)
 Program Customer Satisfaction




                                 16
Full Service Intelligent Mail         DA-MA-11-001(R)
 Program Customer Satisfaction




                                 17
Full Service Intelligent Mail         DA-MA-11-001(R)
 Program Customer Satisfaction




                                 18
Full Service Intelligent Mail         DA-MA-11-001(R)
 Program Customer Satisfaction




                                 19
Full Service Intelligent Mail         DA-MA-11-001(R)
 Program Customer Satisfaction




                                 20
